<html>
<title> - THE SHAME OF IRANIAN HUMAN RIGHTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                   THE SHAME OF IRANIAN HUMAN RIGHTS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2015

                               __________

                           Serial No. 114-16

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                                   ______
 
                       U.S. GOVERNMENT PUBLISHING OFFICE 

93-535 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     

                                 ______
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Shayan Arya, Central Committee Member, Constitutionalist 
  Party of Iran (Liberal Democrat)...............................     9
Mr. Mohsen Sazegara, president, Research Institute on 
  Contemporary Iran..............................................    20
Mr. Anthony Vance, director, U.S. Baha'i Office of Public Affairs    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Shayan Arya: Prepared statement..............................    13
Mr. Mohsen Sazegara: Prepared statement..........................    22
Mr. Anthony Vance: Prepared statement............................    26

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
Mr. Mohsen Sazegara: Proposals...................................    48

 
                   THE SHAME OF IRANIAN HUMAN RIGHTS

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

        Global Human Rights, and International Organizations and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations) 
presiding.
    Mr. Smith. The subhearing of the joint subcommittees will 
come to order, and good afternoon to everybody.
    At a time when the administration seems keen to reach a 
nuclear accord that relies at least to some extent on trust, 
although there are some verification aspects to it, with the 
Iranian regime and perhaps even a de facto collaboration in the 
fight against ISIS, it is wise to consider and scrutinize the 
dismal human rights record of this country which we are 
currently conducting negotiations with.
    How they treat their own people is illustrative of how they 
see and will treat outsiders. This hearing provides a critical 
examination of human rights in Iran, which is important and 
necessary in its own right, and also places in context the 
administration's efforts toward a nuclear deal.
    According to the report by the U.N. Special Rapporteur on 
Human Rights in Iran, between July 2013 and June 2014, at least 
852 people were executed in Iran. Shockingly, some of those 
executed were children under the age of 18. Iranian human 
rights activists place the number of people executed by the 
regime at 1,181.
    The current Department of State human rights report states 
that Iranian human rights violations include disappearances; 
cruel, inhuman, or degrading treatment; mistreatment of 
prisoners including judicially sanctioned amputation and 
flogging; rape; politically motivated violence and repression; 
harsh and life-threatening conditions in detention and prison 
facilities, with instances of death in custody; arbitrary 
arrests and lengthy pretrial detention, sometimes 
incommunicado.
    While the Iranian Constitution grants equal rights to all 
ethnic minorities and allows for minority languages to be used 
in the media and in schools, minorities do not enjoy equal 
rights and the regime consistently denies their right to use 
their language in school. In addition, a 1985 law prohibits 
non-Shi'a ethnic minorities from fully participating in civic 
life. That law and its associated provisions make full access 
of employment, education and other areas conditional on a 
devotion to the Islamic Republic and the tenets of the Shi'a 
Islam.
    The regime disproportionately targets minority groups 
including Kurds, Arabs, Azeris, and others, for arbitrary 
arrest, prolonged detention, and physical abuse. These groups 
report political and socioeconomic discrimination particularly 
in their access to economic aid, business licenses, university 
admissions, permission to publish books, and housing and land 
rights.
    Because of the severe religious freedom abuses, our 
Government has designated Iran as a Country of Particular 
Concern since 1999, each year. Frequently, the arrest and 
harassment of members of religious minorities has continued 
following a significant increase in 2012. The government 
severely restricts religious freedom, and there have been 
reports of imprisonment, harassment, intimidation, and 
discrimination based on those faith beliefs.
    There has been continued reports of government charging 
religious and ethnic minorities with ``enmity against God,'' 
``anti-Islamic propaganda,'' or vague national security crimes 
for their religious activities. Those reportedly arrested on 
religious grounds face poor prison conditions and treatment, as 
with most prisoners of conscience.
    One of the imprisoned on religious grounds is Pastor Saeed 
Abedini, a U.S. citizen and father of two--Rebekkah and Jacob--
and a Christian imprisoned in Iran because of his, and only 
because of, his faith. Pastor Abedini was imprisoned by the 
Iranian regime nearly 1,000 days ago when members of the 
Revolutionary Guard pulled him off a bus and then placed him 
under house arrest. He later was taken away in chains to Evin 
prison, where he endured periods of solitary confinement, 
beatings, internal bleeding, death threats, and continued 
psychological torture all because he would not deny his 
Christian faith.
    What was Pastor Abedini's crime? According to the court, he 
was a threat to the security of Iran because of his leadership 
role in Christian churches between 2000 and 2005. And I would 
note parenthetically that he was allowed to go back to build an 
orphanage, got the approval and then had that all reversed and 
then he was arrested.
    President Obama promised Pastor Abedini's son Jacob that he 
would do all he can to gain his father's release by the boy's 
birthday next month. Yesterday, the Secretary of State in 
answer to a question I posed said the administration was 
working quietly to gain Pastor Abedini's release as soon as 
possible. Let us hope.
    Meanwhile, Iran is repeatedly cited for virtually 
unrelenting repression of the Baha'is community which Iran's 
Shiite Muslim clergy views as a heretical sect. Baha'is number 
about 300,000-350,000. At least 30 Baha'i remained imprisoned 
and 60 were arrested in 2012. A February 2013 U.N. report said 
that 110 Baha'is were in jail. They had said that 133 were 
expected to start serving jail time.
    Since the 1979 Islamic Revolution, the regime has executed 
more than 200 Baha'is simply because of their faith. The regime 
frequently prevents many Baha'is from leaving the country, 
harasses them, persecutes them, and generally disregards their 
property rights. I would note parenthetically that when Ronald 
Reagan was President and was the first one to raise the issue 
at the Presidential level, I was there at the White House when 
he so designated the defense of the Baha'i as a very vital, 
important interest of the United States and all concerned about 
human rights.
    Iranian courts offer no recourse to the monstrous 
violations of human rights because without an independent 
judiciary Iranians and foreigners tied to those courts are 
routinely denied fair trials sometimes resulting in executions 
without due process.
    I'd like to now yield to Mr. Deutch for any opening 
comments he may have.
    Mr. Deutch. Thank you. Thank you Chairman Smith, Chairman 
Ros-Lehtinen and Ranking Member Bass for holding today's joint 
hearing. It is very important that our two subcommittees come 
together today to shine a light on Iran's atrocious human 
rights record. And I apologize because this is an issue I care 
deeply about but I'm going to be running back and forth to 
another hearing taking place at the same time.
    While the world anxiously awaits to see what if any 
agreement will be reached on Iran's nuclear weapons program, 
this hearing serves as an important reminder that even beyond 
the dangerous and illicit program Iran's regime routinely 
violates human rights of the Iranian people. At the same time 
that the news is focused on Geneva, back in Iran the human 
rights situation is as dismal as ever.
    We are well past the Ahmadinejad period in Iran where 
inflammatory statements made criticism easy. Enough time has 
passed to see what the Rouhani administration can do. 
Unfortunately it appears that Rouhani has fallen short on many 
of his campaign promises, hamstrung perhaps by the Supreme 
Leader's ultimate and absolute control. The Iranian economy 
continues to suffer due to the intransigence of its leaders, 
and the Iranian people remain repressed and restricted by the 
ultra-conservative social policies of the Ayatollah.
    Today's hearing serves as an important reminder that even 
if we were to resolve the nuclear issue, even if hypothetically 
the P5+1 reaches an acceptable nuclear deal, Iran still remains 
a global leader in terrorism financing and human rights abuses. 
Iran would still be willing to sentence a juvenile to death for 
the crime of corruption on earth and imprison hundreds of 
political prisoners.
    This is a government that refuses for its own people some 
of the most fundamental human rights, a government that is 
willing to perpetuate misogynistic, racist, and homophobic 
policies, and one that will relentlessly defend its right to 
possess nuclear capabilities while the Supreme Leader continues 
to decry Israel's right to simply exist.
    Showing a complete disregard for the principle of the right 
to life, Iran continues to execute its citizens at alarming 
rates. Official sources put the number of executions in 2014 at 
200, but the actual number could likely be over 700. Many of 
those individuals were charged with questionable or vague 
offenses, like a woman last October that was convicted of 
killing a man that she claimed was in the act of raping her. 
With dozens and dozens of offenses that carry capital 
punishment, Iran's judiciary has shown just how easy it is for 
an individual to be put to death, with over 80 Iranians 
executed in January of this year alone.
    The government allows no room for political dissent or 
critical belief. The regime continues to censor journalists and 
political activists and to deny its citizens their freedom of 
speech and opinion. Iran's unfounded arrest and subsequent 
jailing of Washington Post journalist Jason Rezaian on trumped 
up charges is despicable and must be condemned by all 
responsible nations.
    The Internet is certainly not an open and safe space in 
Iran. Anything from a Facebook post to a viral video can land 
an individual in jail for years. And with one of the highest 
incarceration rates in the world, Iran certainly exercises 
their willingness to imprison individuals in order to keep 
absolute control over media and news content consumed by the 
people.
    Another favorite tactic of the Iranian regime is targeting 
ethnic and religious minorities. The country's largest non-
Muslim religious minority, people of the Baha'i Faith, face 
particularly hostile treatment. This community is denied 
freedom of religion, they live under constant fear of arrest, 
attacks, and destruction of their religious sites. Over 100 
Baha'is are currently held in detention and many international 
reports have criticized Iran's failure to ensure that they 
receive a fair trial and adequate access to counsel.
    Many other groups also face bigotry and targeted 
discrimination. Christians and Sunni Muslims, Arabs, Kurds, and 
Azeris, and many more religious and ethnic minority groups are 
also frequently targeted by the regime, and many are forced to 
hide signs of their identity while in public.
    Women are still subservient to men in many aspects of daily 
life, and as we witnessed from the gruesome pictures of acid 
attacks last fall, women are still targeted for violating 
social norms as set by the state's religious interpretations.
    For the LGBT community the environment in Iran is bleak. 
LGBT individuals face discrimination from their government but 
also from their friends and families. They can't turn to the 
courts because same-sex relationships are criminalized. They 
can't report attacks to law enforcement authorities out of fear 
that they may be arrested for being LGBT.
    And there's little information or support available on the 
ground. The head of Iran's human rights council made the 
government's position clear when he said that universal human 
rights should not be extended to what he referred to as the 
homosexual lifestyle.
    Yesterday during another Foreign Affairs Committee hearing, 
I implored Secretary Kerry to continue to raise the case of Bob 
Levinson, an American citizen and my constituent, who has been 
missing in Iran since March 2007, while our negotiators sit 
across the table from the Iranians. Eight years later Bob is 
still not home. Despite indications by the Iranian Government 
of their willingness to assist in this case, we're nearing the 
eighth anniversary of his disappearance and we see no positive 
signs. We must continue to advocate for help in Bob's case and 
for the release of the other American citizens unjustly held in 
Iran, Amir Hekmati and Pastor Abedini.
    Last November we passed a resolution condemning the Iranian 
Government for these and many more human rights violations, a 
long list to be sure, but it is important that we as a body 
consistently condemn these policies and practices. 
Unfortunately the same is not the case for the rest of the 
world. The U.N. General Assembly's Third Committee also voted 
last fall in a resolution on Iran's human rights abuses. And 
while it passed with 78 votes, 69 countries abstained and 35 
countries voted against it.
    Finally, as we get closer to the deadlines for negotiations 
with Iran, I urge my colleagues in Congress and our negotiators 
in Geneva to not take our eyes off what is happening on the 
ground in Iran. With such deplorable human rights abuses 
occurring daily and millions of Iranians repressed and facing 
discrimination, we've got to keep the global spotlight on Iran 
and condemn the government's disregard for basic human rights. 
That is what today's hearing will do.
    I want to thank again the chairman. I want to thank our 
witnesses. I look forward to hearing from you today.
    Mr. Smith. Thank you very much, Mr. Deutch.
    It is a privilege to join Ileana Ros-Lehtinen, the former 
chairman of the full committee and now chairman of the 
Subcommittee on the Middle East and North Africa. This is both 
of our subcommittees' joint hearing. I yield to my good friend 
and colleague.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Smith, and 
thank you for holding this joint subcommittee hearing on this 
important topic. And in fact this is the third hearing that 
Chairman Smith and I have held on the issue of human rights in 
Iran, and I am appreciative of your continued dedicated 
leadership on this issue.
    I want to first start with some good news. We confirmed 
yesterday that Rozita Vaseghi was finally released last month 
after a 5-year sentence in prison in Iran. Rozita is a member 
of the persecuted Baha'i community that you have heard about 
from my colleagues. They are Iran's largest non-Muslim 
religious minority and I adopted her as a prisoner of 
conscience last year as part of the Tom Lanto Human Rights 
Commission's Defending Freedoms project.
    And while I am relieved, all of us are, that Rozita has 
been released and will be able to get the health care that she 
needs after years of brutal mistreatment and solitary 
confinement, we know that her ordeal is not over. She has not 
been given any paperwork. Authorities have not told her whether 
she really might continue to serve a second 5-year term or even 
an arbitrary 2-year term. She fears that she could be thrown 
back in prison at any time, so we continue to pray for Rozita 
and for so many others as well.
    Mr. Chairman, as you know the Iranian regime uses tactics 
like those that they used against Rozita every day to instill 
fear in the people of Iran. Iran's human rights practices are 
amongst the worst in the world. But in its desperation to 
secure a nuclear deal, the Obama administration has completely 
ignored the issue of human rights in Iran as well as many other 
concerns that we have with the Iranian regime.
    And this serves as another example of the policy of the 
White House to look the other way on human rights violations as 
part of any negotiation, and that was evident in Cuba. The 
administration is hosting regime officials tomorrow after the 
Castro state security folks have arrested over 300 civil 
society activists in the last 3 weeks. In the last 3 weeks. And 
delegations have come and gone and folks say they are all in 
favor of human rights, but apparently not while there. Among 
them was Berta Soler who testified before your subcommittee, 
Mr. Chairman, 3 weeks ago. In these secret talks with Cuba, the 
administration showed its willingness to trade away the store 
for little concessions in return.
    So the question becomes what will the administration trade 
next with the Iran nuclear deal? What will the administration 
give up in return for those American citizens who are being 
held in Tehran? The parallels between how the White House is 
negotiating in secret with Cuba and Iran at the same time--
well, the parallels are striking.
    What the administration has never understood or really has 
chosen to ignore is that Congress passed strong sanctions laws 
not just to stop Iran's nuclear program but also its ballistic 
missile program, its weapons program, its worldwide support for 
terror, its destabilization of the region, its abysmal human 
rights record. And as the author of many pieces of Iran related 
sanctions legislation, I can tell you that from the beginning 
the administration fought Congress tooth and nail to stop any 
sanctions at all.
    And so it is of no surprise to anyone that the human rights 
issue is not even a part of the discussion when we talk about 
the nuclear deal. And now it appears increasingly likely that 
the administration will give away what little leverage we have 
and leave the ayatollahs free to continue to oppress the people 
of Iran, to continue jailing, torturing, and executing 
dissidents, prisoners of conscience, religious minorities, and 
ethnic minorities.
    It is truly shameful to hear our own State Department talk 
about the importance of global human rights, talk about it when 
it does absolutely nothing and in fact is indirectly 
legitimizing the continued repression of the people of Iran.
    The Obama administration after failing to support the 
Iranian people's right of self-determination during the 2009 
Green Movement rushed to brand Rouhani as a moderate saying 
that human rights under this Ayatollah lackey would somehow 
improve.
    But what we have seen, Mr. Chairman, is just the opposite. 
Human rights under Rouhani have actually gotten worse. There 
have been more crackdowns on free speech, more arrests, more 
jailings of journalists, more jailings of political prisoners, 
more persecution of women, the LGBT community, religious 
minorities, ethnic minorities, more executions.
    According to the latest report of Human Rights Watch, the 
real number of executions in Iran last year is thought to be 
over 600 including eight who were under the age of 18. We still 
cannot confirm the execution last week of Saman Naseem, a 22-
year-old ethnic Kurd who was 17 when he was arrested. Bloggers 
and social media users have also suffered under Rouhani with 
security forces cracking down sharply on any dissent, 
especially those considered to be leading members of the 
opposition.
    Members of the Baha'i community like Rozita are especially 
targeted with 100 Baha'is currently in prison. Baha'i 
cemeteries are systematically destroyed, including last year's 
bulldozing of over 1,000 graves in one city in order to build a 
cultural and sports complex. And May 14th is the 7-year 
anniversary of the imprisonment of the Baha'i Seven, the former 
leadership group who have been serving 20-year sentences for 
advocating on behalf of their religious beliefs.
    The regime hopes that we will move on, we will forget the 
people of Iran as the administration in the U.S. continues to 
negotiate solely on the nuclear program and there are at least 
four unjustly jailed Americans in Iranian prisons. And we've 
mentioned them here.
    Saeed Abedini, a Christian pastor who has been in jail 
since 2012 has been tortured and beaten by prison guards and 
inmates. Marine veteran Amir Hakmati who has been held since 
2011. His health is rapidly deteriorating. He is also beaten 
and tortured. Jason Rezaian, the Washington Post bureau chief 
arrested last year, still has not been charged but he is in 
solitary confinement and his health is declining. And of course 
the constituent of my good friend Ted Deutch, Bob Levinson, a 
south Florida resident who has been held captive by the Iranian 
regime since March 9, 2007, making him the longest held hostage 
in U.S. history. These four U.S. citizens are just a few of the 
millions who continue to suffer under the Iranian regime, and 
tragically that suffering is not part of the administration's 
calculus.
    Human rights are an essential factor in long term 
stability, should be a key objective in our foreign policy 
strategy, not a simple resolution to pass but something to live 
up to every day both for those suffering under tyranny and for 
our own national security.
    Mr. Chairman, we must not allow the human rights conditions 
in Iran to be ignored continually by this administration. Thank 
you, sir.
    Mr. Smith. Madam Chair, thank you very much for your very 
eloquent statement and for your passion.
    Now we will yield to Mr. Cicilline.
    Mr. Cicilline. Thank you Mr. Chairman, and thank you to you 
and to Ranking Member Deutch, and thank you to Chairman Ros-
Lehtinen for convening this hearing and for calling attention 
to this very important issue.
    While the nuclear negotiations with Iran have dominated 
discussions in this country of late, the fact remains that Iran 
remains one of the world's worst perpetrators of human rights 
abuses and it is critical that we continue to bring attention 
to this issue. For those who dare to criticize the regime of 
Supreme Leader Khamenei or attempt to challenge the government 
and propose conformity, they face harsh consequences sometimes 
even including death.
    I am particularly concerned about the horrific disregard 
for basic political expression, which according to the current 
State Department human rights report, they characterize it as 
the most egregious human rights problems were the government's 
manipulation of the electoral process, which severely limited 
citizens' right to change their government peacefully through 
free and fair elections; restrictions on civil liberties 
including the freedoms of assembly, speech, and press; and 
disregard for the physical integrity of persons whom it 
arbitrarily and unlawfully detained, tortured, and killed. And 
as was explained, including four American citizens currently 
being held.
    In addition, I am particularly concerned about the rights 
of LGBT persons and other vulnerable minority groups in the 
country, in a country that imposes strict, so-called morality 
codes, does not respect basic freedom of expression or religion 
and limits access to the outside world.
    I thank the witnesses for being here today and look very 
much forward to your testimony, and again thank the chairman 
and ranking member for calling this hearing. And with that I 
yield back.
    Mr. Smith. Thank you.
    I would like to yield to Chairman Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I want to commend you 
and Chairman Ros-Lehtinen for continuing this series of 
hearings on Iran, perhaps the most dangerous regime in the 
world today.
    Iran continues to be one of the world's leading abusers of 
fundamental human rights. The example of the Baha'is which both 
you and Chairman Ros-Lehtinen talked about already, it has 
already been referred to, but unfortunately it is only one of 
many of these abuses which are taking place today.
    The regime persecutes anybody who dares to speak publicly 
or not so publicly against the regime and often issues death 
sentences to Iranians who are charged with insulting the Islam. 
It has become pretty clear that the so-called moderate Rouhani 
is just another in a long list of Iranian dictators whose 
contempt for his own people's fundamental human rights and 
religious freedom is readily apparent.
    When I chaired the Middle East Subcommittee in not the 
past, but the one before that Congress, as I had the 
opportunity to spend about an hour with Prime Minister 
Netanyahu in his office, and some of the things he told me were 
shocking and I hadn't heard a lot of them in the news. And one 
in particular that stands with me to this day was the fact that 
during the Green Movement they had videos, the government did, 
and so when they were over we might have thought it was over. 
And what they were doing is systematically identifying those 
people that were in the crowds and that were supporters of the 
Green Movement and they were disappearing and in many instances 
along with their families, and this was something that got very 
little attention.
    And my colleague, Ms. Ros-Lehtinen, mentioned this 
administration's, for lack of a better term, dropping the ball, 
in many instances when it comes to Iran. That was one in 
particular. I think we had an opportunity to actually speak out 
and do something on behalf of that movement. That was an 
opportunity that was missed and a lot of people unfortunately 
have paid a very high price as a result of that inaction.
    And so I want to thank you for holding this hearing and I 
yield back.
    Mr. Smith. Thank you, Chairman Chabot.
    The chair recognizes the gentleman from Michigan, Mr. 
Trott.
    Mr. Trott. I want to thank Chairman Smith and Chairman Ros-
Lehtinen for holding this hearing. And there's no question that 
Iran is guilty of egregious human rights violations. They 
continue to manipulate the election process to prevent peaceful 
and fair elections. They severely restrict civil liberties, 
commit repeated religious freedom abuses, show disrespect for 
the physical integrity of its people through arbitrary 
detentions and torture and killing.
    Other problems include sanctioned amputations and rape and 
flogging and punishment for politically motivated violence. It 
is not surprising that the World Press Freedom Index ranked 
Iran 173rd out of 180 countries with respect to human rights 
violations.
    This hearing is timely for two reasons. First, we have to 
continue to shine a light and show the terrible abuses that are 
happening with respect to human rights in Iran, and secondly, 
Secretary Kerry continues to tell us that we can trust and rely 
on our negotiations with them and that they need more time. And 
for me, I submit that a country that is guilty of such 
egregious abuse cannot be trusted, should not be trusted, and 
is not worthy of the respect of the world community. Thank you 
for being here today.
    Mr. Smith. Thank you very much, Mr. Trott.
    I would like to now introduce our very distinguished panel 
beginning first with Shayan Arya who is an expert in Iran, who 
is also a human rights and political activist. He was elected 
to the Central Committee of the Constitutionalist Party of Iran 
in which he served multiple terms. He has co-authored numerous 
articles focusing on the Iranian regime's human rights 
violations, internal politics, and terrorist activities. The 
articles have been published around the world in publications 
such as the Wall Street Journal, The Australian, the Washington 
Times, Jerusalem Post, and Strategic Outlook.
    We will then hear from Mr. Mohsen Sazegara who was part of 
the 1979 Islamic Revolution and one of the founders of the 
Islamic Revolutionary Guards. He held several positions within 
the regime in the first decade after the revolution, but 
declined to accept any positions in it after 1988. He has 
published three newspapers and two monthly magazines which were 
all shut down by the regime, and has been arrested and 
imprisoned four times in Iran. While out of the country for 
medical treatments in 2004, he was sentenced to 6 years of 
jail. He has continued his political opposition and is 
currently the president of the Research Institute on 
Contemporary Iran.
    Then we will hear from Mr. Anthony Vance, who oversees the 
development of the U.S. Baha'i Office of Public Affairs' 
programs and strategic direction. He joined the office in 2010 
after spending 4 years at the Baha'i World Center in Haifa, 
Israel, representing it to the diplomatic community, civil 
society, and to the host government. A lawyer by training, he 
spent 21 years in the U.S. Agency for International Development 
in legal and managerial positions in Washington, Cote d'Ivoire, 
Kenya, Botswana, and Egypt.
    Mr. Arya, if you could begin.

    STATEMENT OF MR. SHAYAN ARYA, CENTRAL COMMITTEE MEMBER, 
       CONSTITUTIONALIST PARTY OF IRAN (LIBERAL DEMOCRAT)

    Mr. Arya. Chairman Smith, Chairman Ros-Lehtinen, and 
honorable members of the subcommittees, it is really an honor 
to appear before you today to discuss the human rights 
situation in Iran under the Islamic regime. It is an important 
issue that has unfortunately been overlooked by the 
international community in light of the current negotiations 
between Iran and P5+1 since the election of Hassan Rouhani as 
President of Iran in 2013.
    Since that time, the Iranian regime, its supporters and 
lobbyists have tried vigorously to convince the international 
community in general and the U.S. administration in particular 
that something has fundamentally changed for the better in 
Iran, that the Iran Islamic Republic can be trusted to act 
according to Iran's national interests and not its ideological 
ones. Unfortunately however the regime's actions speak louder 
than its words.
    Iran, after China, currently has the highest number of 
executions in the world, and since Rouhani's election there has 
not been a reduction in that statistic. To the contrary, there 
has been a significant increase. In 2014 alone, eight 
individuals believed to be under 18 years of age at the time of 
their alleged crimes were reportedly executed. Human rights 
activists in Iran put the total number of executions for 2013 
and 2014 at 1,181 people.
    The execution of juveniles is not the only crime committed 
by the Islamic Republic. The Islamic regime systematically 
tries to brainwash children. On this important issue I would 
like to draw your attention to the research done by the 
Institute for Monitoring Peace and Cultural Tolerance in School 
Education, IMPACT-se. The Islamic Republic systematically 
indoctrinates children and prepares them for war and encourage 
the hostile attitude toward non-Muslims with children 
instructed not to take unbelievers, Jews and Christians as 
friends.
    Again, against this background is it any surprise that 
almost all religious minorities in Iran suffer officially 
sanctioned discriminations? Baha'is are banned from all 
government positions, are not allowed to have places of 
worship, and are banned from teaching the faith and even attend 
universities. In some cases they have even been denied burial 
sites and their cemeteries are systematically destroyed.
    Evangelical Christians are suffering as well. Even Muslims 
who do not conform to the official interpretation of Islam face 
heresy charges. Last September, Mohsen Amir-Aslani was executed 
for insulting the prophet Jonah by declaring that his story in 
Koran was symbolic rather than factual.
    Even traditional Shiite clerics who reject official 
interpretation of Islam are persecuted. Ayatollah Hossein 
Kazemeyni Boroujerdi is a traditional Shiite cleric who openly 
questions the legitimacy of the Islamic Republic and advocates 
a secular regime and has been imprisoned since 2007. Followers 
of Ahl-e Haqq religion are also under enormous pressure. 
Several members of the Ahl-e Haqq community have self-immolated 
in recent years to protest against religious persecution in 
Iran.
    The Nematollahi-Gonabadi Sufi order is another example. 
Many members of this Sufi order are presently imprisoned and 
several places of their worship in Isfahan and other cities 
have been demolished. Mohammad Ali Taheri, founder of a 
spiritual group, was also arrested in 2011. In fact yesterday 
some of his supporters came out in support of him and many of 
them were arrested, just yesterday.
    Iran is one of the few countries in the world that 
prosecutes lawyers for representing their clients. Ms. Nasrin 
Sotudeh and Abdolfattah Soltani are good examples. Mr. Soltani, 
a leading human rights lawyer has even been denied medical 
attention despite the fact that even prison doctors have 
written a letter recommending that he be treated outside the 
prison.
    Last March, Maryam Shafipour, 29 years old, was sentenced 
to 7 years in prison for peaceful protests. Many student 
activists such as Majid Tavakkoli, Bhareh Hedayat, Sayed Zia 
Nabavi, Majid Dori, and Navid Khanjani have spent years, years 
in prisons for no crimes other than exercising their rights to 
peaceful protest.
    A young brilliant scientist, Mr. Omid Kokabee, has been 
incarcerated in Evin prison since 2011. He was charged with 
espionage and for refusing not to work on military research 
projects with the government. That was his only crime.
    Atena Farghadani, a children's rights advocate currently is 
in prison and she is on hunger strike. And what she's asking, 
not be released but to be moved from Gharchak prison which is a 
notoriously substandard women prison, to be moved back to Evin 
prison. And she's in a very dire situation right now from what 
I heard yesterday.
    Political activists such as Heshmatollah Tabarzadi have 
spent years in prison for their peaceful activities. Just a few 
days ago, Masood Arab Choobdar, Saeed Shirzad, Hamid Babaei who 
were exiled from Tehran to Rajaei Shahr prison, which is 
another notoriously dangerous prison in Iran, they were beaten 
and severely abused. Another Baha'i prisoner, Shahram Chinian 
was also beaten, so severely that his face was unrecognizable 
by his friends.
    Last July, Iranian writer Arzhang Davoodi was sentenced to 
death after spending nearly 11 years in prison on new charges 
of enmity against God in relation to his political activism and 
writings in support of a secular system. Journalists are 
another group that suffer under the Islamic Republic. According 
to Committee to Protect Journalists currently there are 30 
journalists in Iran in prison.
    These cases are simply a reflection of the Iranian regime's 
repressive domestic practices. The main question then is 
whether these practices are changing and whether Iran's new 
President Hassan Rouhani is really a reformer. To understand 
Mr. Rouhani's relationship to the state it is necessary to 
review his background. He has been a member of Islamic regime's 
leadership for the past 36 years and therefore has been an 
integral part of every aggressive move that the Islamic 
Republic has made since 1982. From creation and training of 
Hezbollah to the 1983 attack on U.S. and French military forces 
in Lebanon, the assassination of nearly 200 Iranian dissidents 
in Europe throughout the 1980s and 1990s, the 1994 bombing in 
Buenos Aires, and more recently to the Iranian's asymmetric 
campaign targeting U.S. and coalition forces in Iraq.
    It is impossible to believe that Mr. Rouhani had no 
knowledge of these actions. Rouhani's cabinet choice for the 
post of Justice Minister, Mostafa Pourmohammadi, speaks volumes 
to his commitment to the issue of human rights. Pourmohammadi 
had direct role in the extrajudicial executions of thousands of 
political prisoners in the 1980s.
    As we all know, Iran is the only country in the Middle East 
where people are by and large are friendly to America, 
therefore it is crucial that America stands up to the Islamic 
Republic on this important issue. I would like to encourage the 
honorable members of the subcommittees on behalf of all those 
who are suffering in the hands of the Islamic regime to link 
any easing or lifting of sanctions not just to the outcome of 
the nuclear negotiations but also to the improvement in the 
human rights situation in Iran.
    With that I would like to thank you again for this 
opportunity and would be more than happy to answer any 
questions.

    [The prepared statement of Mr. Arya follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                    ----------                              

    Mr. Smith. Thank you very much for your testimony, and 
without objection your full statement will be made a part of 
the record as well as our other distinguished witnesses.
    Mr. Sazegara, please proceed.

STATEMENT OF MR. MOHSEN SAZEGARA, PRESIDENT, RESEARCH INSTITUTE 
                      ON CONTEMPORARY IRAN

    Mr. Sazegara. Thank you, Mr. Chairman. Thank you, 
subcommittee members.
    During the last three and a half decades, the Iranian 
people have bitterly experienced suppression of their 
fundamental freedoms and rights and witnessed brutal crackdowns 
of pro-freedom movements in Iran. I deeply regret to say that 
extensive and systematic violations of human rights, 
persecutions, unfair trials, unfounded imprisonments, tortures, 
rapes, and extrajudicial executions still continue despite the 
pledges Mr. Rouhani had made to change this trend during his 
election campaign in 2013.
    Regardless of some rare cosmetic and non-systemic release 
of a dozen of well-known prisoners in 2013 and 2014, the human 
rights abuses have not only continued but also increased in 
many respects, including but not limited to imprisonment of 
human rights activists, journalists, bloggers, university 
students and teachers, workers, ethnic and religious 
minorities, and political opposition.
    In 2014, the cases of arrest, detention, and imprisonment 
of activists illustrate a 74-percent increase as compared to 
2013. This average increase comprises 53 percent increase in 
ethnic minorities cases, 10 percent in religious, 93 percent 
students, 410 percent freedom of expression and conscience, and 
354 percent in labor activists cases.
    Another human rights violation in Iran includes persistent 
and pervasive assault on women on a continued basis under the 
pretext of disrespecting hijab, education and employment 
segregation, and being banned from appearing on stage for 
musical performances.
    Torture of political prisoners continues to coerce 
fabricated confessions that are then used to justify brutal 
crackdowns. According to first hand reports received from 
former political prisoners, the main methods of torture include 
whipping and assault, sexual torture including rape, and 
psychological torture such as prolonged solitary confinement. 
These reports are also in conformity with the reports by Dr. 
Shaheed, the U.N. Special Rapporteur on the Situation of Human 
Rights in Iran.
    Execution in Iran has increased from 544 known cases in 
2012 to more than 800 known cases in 2014, it being the highest 
per capita rate in the world. The numbers are however suspected 
to be higher since many of these executions are carried out in 
secret and the regime has consistently refrained from releasing 
numbers and denied the U.N. Special Rapporteur's access to the 
country.
    These are only examples of a range of human rights 
violation categories. Such extensive and systematic violations 
of human rights should not come as a surprise. Despite talk of 
moderation, Rouhani has indulged impunity and rewarded the 
perpetrators of such grave abuses. His present Justice Minister 
Mr. Pourmohammadi who played, as a member of the notorious 
``death committee,'' a key role in the 1988 prison massacre, 
has been appointed by this very ``moderate'' government.
    In the end, I cordially submit that a standing subcommittee 
be formed under the Subcommittee on the Middle East and North 
Africa in order to monitor and take all the necessary measures 
to draw the world's attention to the grave human rights abuses 
in Iran. Enclosed I have submitted the first two proposals to 
be put on the docket of this subcommittee. Thank you very much.

    [The prepared statement of Mr. Sazegara follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                         ----------                              

    Mr. Smith. Thank you very much.
    Yes, thank you so much for that testimony. Both of you 
brought up the fact that the Justice Minister is in this 
``moderate'' government serving in a high position despite his 
horrific past.
    I would like to now ask Mr. Vance if you would proceed.

STATEMENT OF MR. ANTHONY VANCE, DIRECTOR, U.S. BAHA'I OFFICE OF 
                         PUBLIC AFFAIRS

    Mr. Vance. Chairman Smith, Chairman Ros-Lehtinen and also 
Chairman Chabot, I would like to thank you for giving me the 
opportunity to testify on the situation of the Baha'is of Iran.
    A little background, I think, is appropriate. The Baha'i 
Faith is an independent world religion with over 5 million 
followers in over 200 countries and territories representing 
virtually every racial, ethnic, and national group on the 
planet.
    The faith originated in Iran. It spread rapidly in the mid-
1840s immediately after its inception and included several 
notable clerics among its initial adherents. This triggered a 
violent reaction instigated or supported by a majority of the 
clergy, during which some 20,000 Baha'is were killed over 
little more than a decade.
    The primary reason that Baha'is are persecuted is 
theological. Most of the Islamic clergy in Iran believes that 
Islam is the final religion of God. The Baha'i Faith, a 
religion that arose after Islam, is therefore viewed by most of 
Iran's clergy as heresy and blasphemy, and Baha'is are viewed 
as apostates.
    In addition, Iran's clerics view certain teachings of the 
Baha'i Faith as threatening. For instance, the Baha'i Faith 
does not have a clergy and holds that each individual has the 
duty to investigate spiritual truth and arrive at his or her 
own beliefs. In addition, Baha'is believe strongly in the 
equality of women and men.
    Now while the intense brutality against Baha'is began to 
subside toward the end of the nineteenth century, unequal 
treatment, social hostilities and sporadic surges in violence 
continued during much of the twentieth century. After the 
Islamic Revolution of 1979, Baha'is became the target of severe 
and systematic state-sponsored persecution and it became 
official government policy to oppress Baha'is.
    In the years following the revolution, over 200 Baha'is 
were killed, the majority by execution. Thousands of Baha'is 
were imprisoned, many of them tortured. Baha'i holy places were 
destroyed and Baha'i cemeteries have repeatedly been attacked 
and desecrated, including the current ongoing excavation of the 
large Baha'i cemetery in Shiraz.
    The government also made and continues to make concerted 
efforts to impoverish the Baha'i community. After the 
revolution, Baha'is were dismissed from government jobs and 
denied pensions and private employers have been pressured not 
to hire Baha'is. Baha'is still suffer frequent raids on their 
homes and businesses, including a recent spate of shop 
closures, and their property is routinely seized without 
compensation.
    Baha'is were also dismissed from university positions after 
the revolution, and Baha'i students have been excluded from the 
nation's universities and continue to be so. The seven members 
of the former ad hoc leadership group of the Baha'i community 
are among the 100 Baha'is currently imprisoned in Iran, nearly 
twice the number that were imprisoned at the end of 2010.
    In the last several months there has also been a disturbing 
surge in anti-Baha'i hate propaganda in state-sponsored media 
outlets. In 2010 and 2011, approximately 22 anti-Baha'i pieces 
were appearing every month. In 2014, the number of anti-Baha'i 
pieces rose to approximately 401 per month, 18 times the 
previous level.
    In July 2013, the Supreme Leader Ali Khamenei reissued a 
religious decree prohibiting Iranian Muslims from associating 
with members of the ``deviant sect,'' a well-known reference to 
Baha'is. The clerical establishment has long promoted the view 
that Baha'is are ritually unclean and that the blood of Baha'is 
is mobah, meaning that it can be spilled with impunity.
    Last October, the review of Iran's human rights record 
before the U.N. Human Rights Council revealed that Iran had 
failed to live up to dozens of promises made during its last 
Universal Periodic Review in 2010, including several related to 
the Baha'is. Yet in an astonishingly blatant falsehood, Iran's 
written response to the council declared ``minorities, 
including Baha'is, enjoyed a full range of opportunities and 
privileges.''
    It is our hope that at the follow-up session on Iran that 
will be held next month, responsible nations will emphasize the 
persecution of the Baha'is and countless other individuals and 
will hold the Iranian Government to account for its gross 
violations of human rights. Thank you very much, Mr. Chairman.

    [The prepared statement of Mr. Vance follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Mr. Vance, thank you so very much for your 
testimony, and to all of you. We will stand in a brief recess. 
We have three votes on the floor of the House right now, and 
then we will resume our sitting of the two subcommittees. But 
thank you so very much, and I apologize for the inconvenience.
    [Recess.]
    Ms. Ros-Lehtinen [presiding]. The subcommittee will come to 
order. We had a round of votes and Chairman Smith was called 
for an important meeting, but as soon as he gets done with that 
he will be back. But thank you for your excellent testimony, 
and I will begin the question and answer part. Thank you so 
much.
    As I had said in my opening statement, despite the 
administration's lip service to the issue of human rights, they 
have been effectively ignoring human rights in our foreign 
policy discussion and implementation to the detriment of 
millions who are suffering under tyranny. As we know, actions 
speak louder than words and this administration has thrown 
human rights to the back burner, especially in places like my 
native homeland of Cuba and in Iran where the administration 
has been desperate to secure deals with these tyrannical 
regimes.
    So I am sorry if I am not going to pronounce your names 
correctly, but I have a very difficult name as well and I don't 
get upset when people don't know how to say it.
    Mr. Arya?
    Mr. Arya. Arya.
    Ms. Ros-Lehtinen. Arya. You testified that human rights 
have ``been overlooked by the international community in light 
of current negotiations between Iran and the P5+1.'' How has 
the human rights situation in Iran changed in these 
negotiations under Rouhani?
    Mr. Arya. Well, Madam Chairman, as I said it is getting 
worse. I mean if you look at the Islamic regime, it is in their 
nature when they feel secure they just become aggressive. When 
they see that there is no attention being paid to the issue of 
human rights, for example, they just do whatever they want and 
they see no reason why they should stop. They get rid of their 
opponents, they do all kinds of things that is just true to 
their nature.
    But everything has gotten worse and all the statistics show 
that everything has gotten worse, from the number of 
executions, from the number of juveniles being executed, from 
religious minorities, everything has been worse under Rouhani. 
And my take, I think, is that international community hasn't 
paid enough attention to this issue, and they haven't been 
forcing Rouhani to stand up to his campaign promises and things 
of that nature. They just focus on the nuclear issue and then 
push everything aside. So that is unfortunate, I believe, that 
everything has gotten worse, and it is time for international 
community and U.S. administration especially to pay attention 
to that issue as well.
    Ms. Ros-Lehtinen. Well, I agree. And I see such 
similarities in my native homeland of Cuba when on December 
17th the President announced we will have diplomatic relations 
with the Castro regime. And tomorrow another round of 
negotiations will take place in the State Department and the 
lead negotiator for that agreement is Josefina Vidal who was a 
spy for Cuba and was actually expelled by the United States 
because of her espionage activities, now she is in charge of 
the negotiations.
    What signal does that tell the Castro regime? We can do 
whatever we want and everything is forgiven, and it sends a 
terrible signal to the human rights activists. That is why it 
comes as no surprise that since the President's announcement on 
December 17th, there has been a record number of arrests in 
Cuba. You would think that at the very least Raul Castro would 
tone this down while people are paying attention, but the sad 
fact is, as you pointed out, people are not paying attention.
    And so if the United States does not lead the way, the 
international community will be silent. They will be silent in 
Cuba. They were silent in Venezuela. And they are silent in 
Iran. That is why the United States has such a pivotal role to 
play when it comes to talking about human rights and doing 
something about human rights. Because if not, it sends a 
message to Rouhani that he can do whatever he wants, keep 
executing people, keep jailing people for their religious 
beliefs, we will look the other way.
    And that sends a chilling message to so many people living 
under this yoke of tyranny in Iran who want to be free, who 
want a different kind of government, but they think, well, 
obviously no one is paying attention, and the international 
community, they are so eager to have this nuclear deal that 
they are willing to look the other way as well.
    What kind of support do you see for the issue of Iranian 
human rights internationally in human rights organizations, et 
cetera?
    Mr. Arya. Well, I believe that on every arena from the 
administration to the Congress, this issue should be brought up 
continuously. In the United Nations, everywhere. Because 
without that the Islamic regime won't do anything then. I mean 
they will continue to abuse the Iranian people's rights.
    A very good example, if I may, the way President Reagan 
dealt with Gorbachev, they wanted to make a deal with 
Gorbachev, they had good relationship with Gorbachev. They 
negotiated with him. They did all of that. But at the same 
time, when President Reagan went to Moscow he made a point to 
meet with the dissidents. And that sent a very good message, 
encouraging message, to all the anti-Soviet dissidents all over 
the former Soviet Union.
    Ms. Ros-Lehtinen. That they were not forgotten.
    Mr. Arya. Exactly.
    Ms. Ros-Lehtinen. People cared about them.
    Mr. Arya. Exactly. The attitude of U.S. and European 
countries and all the other countries should be the same way. 
That whatever negotiations that goes between, I mean we 
understand. I am a member of opposition. I advocate regime 
change in Iran. But at the same time I understand that 
international relations and security concerns dictates that 
sometimes they have to negotiate with the Islamic regime. That 
is fine. But at the same time that negotiation, that 
improvement in relationship should not come at the expense of 
Iranian people's rights to freedom. That is the most 
important----
    Ms. Ros-Lehtinen. It is not an either/or.
    Mr. Arya. Exactly.
    Ms. Ros-Lehtinen. And yet we give that message to the 
people with whom we are dealing whether it is Rouhani, whether 
it is Castro. They will say, well, we are just going to talk 
about diplomatic relations with Cuba, we will ignore human 
rights. We are just going to talk about a nuclear deal with 
Rouhani, we will ignore human rights. And that is a great boost 
to these regimes to keep harassing, intimidating and jailing 
opposition leaders because they have actually been given a 
green light to do so by our very own Government.
    Mr. Arya. I agree.
    Ms. Ros-Lehtinen. Mr. Sazegara?
    Mr. Sazegara. Yes.
    Ms. Ros-Lehtinen. Thank you. You were one of the founding 
members of the Islamic Revolutionary Guard Corps before being 
imprisoned for your opposition to the regime. What can you tell 
us about the inner workings of the IRGC and the Iranian regime, 
its financing capabilities and the risk that the IRGC poses to 
U.S. interests and to our regional security interest?
    Mr. Sazegara. I was one of the founders of the 
Revolutionary Guard and one of the writers of the Charter of 
Revolutionary Guard in the first 3 months of victory of 
revolution, and then I left the guard and went to the National 
Radio and Television of Iran. But I followed the changes in the 
Revolutionary Guard during the last 36 years.
    Right now the Revolutionary Guard is, I believe, a kind of 
unique organization and maybe all around the world, because at 
the same time Revolutionary Guard is like a political party, a 
terrorist organization, a mafia group involved in the smuggling 
of drugs, alcoholic beverages, sex traffic in Iran, and a 
complex holding company. It owns several companies, huge 
manufacturing and trading companies of Iran. And its 
intelligence organization which directly works under command of 
son of the Ayatollah, the leader of Iran, is more brutal than 
Ministry of Intelligence and more powerful.
    So a part of at least the most important part of the 
nuclear project of Iran is controlled by the Revolutionary 
Guard as well. Besides that I think that especially these 
coming years, I mean 2015 and 2016, because of illness of the 
leader, the political competition in Iran amongst several 
factions especially inside the Revolutionary Guard will be 
increased. And for this simple reason, as a political activist 
I am really, really afraid of more brutality, more separation 
of the people during this year and the year after.
    And the economic crisis which has been created not only 
because of the sanctions, more than the sanctions are 
mismanagement and oil price, which has been decreased about 60 
percent, and several other factors will affect several aspects 
of Iranian people on this year.
    And again, riots, strikes, protests of workers, of 
teachers, I believe that we will suffer brutality by 
Revolutionary Guard this year and the year after. I want to 
add----
    Ms. Ros-Lehtinen. In Iran itself.
    Mr. Sazegara. Yes.
    Ms. Ros-Lehtinen. And what about the risks that they pose 
for our interests and regional concerns?
    Mr. Sazegara. As you know, the Quds Force of Revolutionary 
Guard, which has about 14,000 members, is the special division 
of Revolutionary Guard which is in charge of out-of-Iran 
operations. I think that because of the internal affairs of 
Iran, the Quds Force of Revolutionary Guard will increase the 
out-of-Iran operations and adventurism in the region.
    And I say adventurism because they know from the period of 
war between Iran and Iraq that in crisis and military situation 
and in out-of-Iran crisis they can have the upper hand in 
internal politics. For instance, recently the missile platforms 
in Golan Heights, which were attacked by Israelis and 
destroyed, as far as I know there are several projects like 
that in the whole region, or assassination of some prominent 
opposition figures outside Iran by new methods that they hire 
some thugs to attack them just by knives or daggers or 
something like that, the example that happened in Jerusalem 2 
or 3 months ago, or other crises.
    I mean I expect for the year coming acceleration of out-of-
Iran operations, terrorist operations, and creating some 
conflicts too because of, especially because of the internal 
competitions in Iran.
    Ms. Ros-Lehtinen. To take away attention from their inner 
problems, have they focused on that?
    Mr. Sazegara. And they know that in such situations they 
become more powerful in internal politics if they say that yes 
we are involved in Iraq. This is the war over there in Yemen, 
with Israel, especially with Israel, in the border of Israel, 
or Hezbollah Lebanon involvement in some battles against Israel 
or several others that, other operations that they have done so 
far. They can have the upper hand in internal politics as well.
    I want to add to Mr. Arya's that as far as I know, Mr. 
Kerry has agreed with Mr. Zarif to put any human rights issue 
off the table. That is what, at the first terms of the rounds 
of negotiations Zarif has said that if you bring any human 
rights issue on the table, then Ayatollah Khamenei will order 
us to leave the table. So they have confidence that there will 
be no pressure----
    Ms. Ros-Lehtinen. They don't have to worry about it.
    Mr. Sazegara. Yes.
    Ms. Ros-Lehtinen. It will be off the table.
    Mr. Sazegara. Iranians watch the U.S. policies through some 
windows like Voice of America, and unfortunately on these days 
they don't hear anything even from Voice of America. And the 
regime sells the idea to the people that see, we have behind a 
curtain----
    Ms. Ros-Lehtinen. We are fine.
    Mr. Sazegara. We have the agreement and nobody can help 
you. You look at that. There is nothing to say about that.
    Ms. Ros-Lehtinen. And the opposition feels dispirited. 
Well, thank you very much. I appreciate it.
    Mr. Vance, the regime's treatment of Baha'is is getting 
worse under Rouhani, not better. Can you describe the treatment 
and the abuse of Baha'is under Rouhani and what does the 
persecution of the Baha'is in Iran mean for human rights in 
general? And what more can you tell me about the prisoner of 
conscience that I had adopted, Rozita Vaseghi, her health, her 
current situation, including the likelihood that Iranian 
authorities will try to imprison her again? Thank you, sir.
    Mr. Vance. Sure. Thank you, Madam Chairman.
    Well, we had been, first, we were guardedly optimistic when 
President Rouhani was elected that he would actually improve 
the situation, especially since he had promised, one of his 
election promises was to put together a draft charter of 
citizens' rights and have it circulated and finalized. He did 
actually issue a draft in November 2013.
    Ms. Ros-Lehtinen. Oh, you should read the Cuban 
Constitution. It is a beauty. They don't follow one word of it, 
but it is beautiful.
    Mr. Vance. We were very disappointed with the draft because 
it made all of the rights under it contingent on the Iranian 
Constitution and on Iranian law. So it didn't actually hold out 
any promise for any future improvements. And I think the draft 
got a great deal of pushback and criticism from a number of 
circles, so it has never been actually circulated again, to the 
best of our knowledge. And that, I think, signaled what we were 
beginning to see, and that is that one of the trends--we have 
always had Baha'is who have been harassed, raids on homes, 
raids on businesses. The amount of physical abuse in those 
raids has actually increased over the last couple of years and 
certainly has not decreased under President Rouhani. Baha'is 
have, because they are excluded from so many professions in 
Iran, they have become largely small business people running 
their own small businesses. And there is a very large amount of 
economic harassment refusing either to provide or renew 
business licenses, closing shops arbitrarily.
    In October, for example, on October 25th, in Kerman and a 
couple of other cities nearby, there were 79 shops that were 
closed simply because the shopkeepers had observed a Baha'i 
holy day. And so the shops were actually sealed. But perhaps 
the most disturbing thing that has occurred, at least in my 
opinion, is the increase in hate propaganda. Because it has 
been shown in many societies that it is a prerequisite, or at 
least it presages in many societies a much more serious 
crackdown on the population that is being targeted.
    I had mentioned that, in 2014, there were 18 times the 
number of anti-Baha'i articles, not just criticizing Baha'is 
but portraying them as being agents of the United States, 
agents of Russia, agents of Israel, accusing them of all sorts 
of immorality. It is all designed to create a sense in people's 
minds that persecution of Baha'is is justified.
    So based on the very unfortunate history of good portions 
of the twentieth century, I am much more concerned about that 
than any other single factor. And certainly that would be in 
the control of, all of this is state-sponsored media and that 
is certainly within the control or should be in the control of 
President Rouhani.
    So we are concerned about that. We are concerned that for 
human rights in general in Iran, because the Baha'is are the 
largest non-Muslim religious minority in the country and 
because they have been traditionally despised to a greater 
degree than any other group by the Muslim clergy, we know that 
if things were to improve for the Baha'is, they would improve 
for everybody because it is inconceivable that things could get 
better for the Baha'is in Iran without them also getting better 
for other groups. So in a sense we are that barometer, let us 
say, of what, how we are being treated is a barometer for the 
rest of the civil society.
    And as to Rozita Vaseghi, we are delighted that she was 
released from prison in Mashhad on January 21st. You had noted 
earlier that she is uncertain as to what her future is because 
she had two 5-year sentences and it was unclear whether they 
were going to be successive or concurrent. The way things stand 
at the moment they were concurrent. They released her.
    But she was also told that she might have another 2-year 
sentence, and so we don't know what is going to happen with 
that. She certainly has health problems that have to be dealt 
with, and rather than get into the details of that I can simply 
say that 5 years in prison in Mashhad took a definite health 
toll on her. Thank you.
    Ms. Ros-Lehtinen. Which was one of the objectives of the 
regime. Thank you very much. Excellent, excellent answers. We 
appreciate it.
    Mr. Cicilline?
    Mr. Cicilline. Thank you, Madam Chair.
    Thank you again for your very, very important testimony. I 
think it is very clear to anyone that has looked at this issue 
that the human rights abuses in Iran are horrific and are 
contrary to basic American values and universal values of human 
rights. And I think the challenge for us is to determine what 
is the most effective way for us to try to change that as 
responsible world leaders and part of the international 
community.
    And so my first question really is, is there any sense that 
President Rouhani, even if he were inclined to change his view 
on human rights, would be empowered to actually make 
substantial changes in the condition of basic human rights in 
Iran, or is the Supreme Leader responsible for this set of 
practices such that the President wouldn't actually have the 
ability or the capacity to change it? Because I think it is 
important to kind of know where our leverage points should be 
in the conversation to begin. I don't know if anyone has a 
sense of that.
    Mr. Sazegara. According to the Constitution of Islamic 
Republic, President is the head of the executive power. And 
judiciary power is controlled by the leader, the head of 
judiciary power is appointed by the leader, and all the judges 
and prosecutors are appointed by that head.
    And Rouhani just theoretically doesn't have so much power 
to change some parts of these human rights abuses in Iran, but 
at least he can do something. For instance, changing his 
Minister of Justice, a notorious killer, a notorious person to 
violate human rights and in charge of massacre, or he can put 
pressure on keeping the freedom of press in Iran, because the 
Ministry of Culture and Islamic Guidance is in charge of the 
press and it is controlled by Rouhani, but he doesn't do that. 
Or changing the situation, for instance, in Iranian 
universities with respect to teachers' associations, labor 
associations, but he has not done anything with respect to 
these parts.
    He can do something to help the civil society of Iran to 
confront the suppression of the rights of the people of Iran, 
but so far he has not done anything. And even he has not said 
anything about the home arrest of the leaders of Green Movement 
of Iran or the other political prisoners.
    So I believe that some parts of the violations has happened 
by the hands of the Minister of Intelligence, while the 
Minister of Intelligence is a member of the cabinet. So I think 
that yes, although he is not directly in charge of the 
judiciary power, he can do many things by the tools that he has 
in the executive power, by the people, by the civil society of 
Iran and support at least the basic freedoms of people of Iran, 
but he has not done anything.
    Mr. Arya. I would like to add I agree with Mr. Sazegara as 
well, however, I believe it is a mistake to believe, to think 
of Rouhani as someone separated from the whole totality of the 
regime. As I said, he has been part of this regime from the 
beginning and he has been serving this regime at the highest 
levels, security levels, from the beginning until now. So it is 
foolhardy to me that we think of him as an outsider who wanted 
to come and do some reforms. He may have presented himself 
during the election as such or to the international community 
that he really is trying to make things better, but things are 
not really in his hands. The judicial system is not really in 
my hands, the security system is not really in my hand, this is 
not in my hand, that is not in my hand, all I can do is this 
and that.
    But he is part of this regime. I mean he has been 
approving--I mean the Mr. Shariatmadari is the notorious editor 
of Kayhan, a very hardline, radical newspaper in Iran. He said 
it and I agree with him. He said that what is all this--and I 
am paraphrasing. He said what is all this talk about him 
wanting to release the leaders of the Green Movement, Mr. 
Mousavi, Mr. Rahnavard, and Mr. Karroubi? He said he voted for 
their imprisonment. At the National Security Council he voted 
for them to be incarcerated. What is this all talk about? I 
mean to me it is a mistake to think of him separately.
    Mr. Cicilline. And is there any evidence that you have seen 
that international pressure that may have been made on the 
human rights abuses as having any effect on the regime? Would 
you talk a little bit about it? Yes.
    Mr. Sazegara. Yes, yes, definitely.
    Mr. Cicilline. And so things like this hearing I assume are 
helpful because they are helping to bring attention to this 
issue. Similarly, if we were to enact a comprehensive statement 
of our kind of affirmation of basic human rights, would that be 
useful? Yes, okay.
    Mr. Sazegara. Yes, I can mention several cases including my 
case. I was in confines for 79 days. I was on a long hunger 
strike. And 800 students were arrested with me when they 
arrested me including my son who was a university student in 
those days. And international pressure was really, really 
effective to release not only me but all those students.
    And I think that more than just telling, and just by 
statements of that, something like Helsinki Accord, something 
which happened that put real pressure on the Communist bloc. 
Right now the sanctions has worked. They have brought the 
regime to the negotiation table. If we can use at least a part 
of these sanctions targeted to human rights, I believe, at 
least the people who are in charge of the violation of human 
rights in Iran be under sanction, I think that it works. And 
the letter soon will send the right signal to the people of 
Iran that the international community is concerned and puts 
real pressure on this regime.
    Mr. Arya. May I add something? I agree. And one thing I 
would really like to, if anything I would like to relay in this 
hearing is that Islamic regime only responds to force. Not just 
military force, but when they see that the international 
community is standing up firmly on any issue they eventually 
back off.
    In Europe during the 1980s and 1990s, more than 200 Iranian 
dissidents were assassinated all over Europe. European 
countries kind of looked the other way. They said, well, it is 
this element of a radical group in the regime or that group, 
and it didn't stop. It only stopped when after the massacre in 
Mykonos all the European countries got together, they pulled 
back their Ambassadors and they imposed some sanctions. Since 
then there hasn't been any assassinations that I know of. So 
they respond to firmness and united front, they will respond to 
that. Otherwise they will just do whatever they want.
    Mr. Cicilline. I just ask the chair if I might just ask the 
last two things. If you would speak to the current situation 
for members of the LGBT community in Iran, specifically are 
there concerns about the basic human rights of lesbian, gay, 
bisexual, and transgender community, and also if you could 
speak to any information you might have about Jason Rezaian, if 
I am pronouncing his name correctly, who is an American 
journalist and who was detained and has been detained. I 
understand that he hasn't been able to have his defense counsel 
meet with him, and whether or not there are current efforts 
underway that you are aware of to secure his release.
    Mr. Sazegara. As far as I know about Jason Rezaian, he has 
been kept in a confined cell and under pressure for TV 
confessions. And they have taped a TV confession from him that 
he is an agent of CIA and the secret services, and he has----
    Mr. Cicilline. This is the Washington Post correspondent, 
just for the people, yes.
    Mr. Sazegara. Yes. And the Revolutionary Guard has done 
that. And he has confessed that one of the relatives of Rouhani 
in his office has helped him and his connection, so they have 
made something out of his confessions to put pressure on 
Rouhani for internal clashes in the regime.
    So I know that Jason Rezaian is just a journalist and has 
not done anything, but this is what they do, how they behave. 
This is what they call it to make a scenario out of any 
political prisoner. So they have a TV confession from him, and 
I doubt that they finish this case easily unless you have a 
very, very heavy pressure on the regime.
    Mr. Arya. I have nothing to add to that.
    Mr. Cicilline. And with respect to the LGBT community?
    Mr. Arya. LGBT community are again it is against Sharia 
law, being gay, and they are under enormous pressure. The only 
group that I know of that are not kind of tolerated, if they 
want to go through sex change then they have provisions to 
allow that. But that is only a small group of LGBT community. 
If somebody is gay and wants to remain gay and wants to be 
lesbian or remain lesbian without going through sex change and 
things like that they will be persecuted. I mean I don't 
exactly know the time, but recently they told two gay men--just 
punish them, to kill them as part of the punishment prescribed 
in Sharia for gay people.
    So I don't see any kind of light in the end of the tunnel 
for that community in Iran so long as the Islamic regime is in 
power because they won't tolerate it. Because it goes against 
everything that they claim to stand by, so it undermines their 
legitimacy, undermines their claim of legitimacy in terms of 
religious doctrine that they prescribe to. I see no improvement 
in their situation except that small little group who want to 
go through the sex change. Other than that they are in terrible 
shape just like any other.
    Mr. Cicilline. Thank you very much again, and I thank the 
chair.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. DeSantis?
    Mr. DeSantis. Thank you Madam Chairman.
    Mr. Sazegara, when you joined the Islamic Revolution in 
1979, you were there it seemed to be from, I read your bio, 
about 10 years before you left?
    Mr. Sazegara. Yes.
    Mr. DeSantis. 1988, is that when you left government?
    Mr. Sazegara. Yes.
    Mr. DeSantis. So did you change or was it the regime that 
changed?
    Mr. Sazegara. Both.
    Mr. DeSantis. So at the time you were, in 1979, because as 
I remember that time or think about the time, I was just a kid 
but there was dissatisfaction with the Shah, but there were a 
lot of people who didn't want an Islamic Revolution. They 
wanted a secular revolution. They just didn't want to have that 
ruling elite in power, and then obviously you had the Mullahs 
who wanted a Sharia revolution. So were you expecting a Sharia 
revolution or did you just think you would remove the Shah and 
have a chance to have a better Iran?
    Mr. Sazegara. Better to say that everybody on those days, 
the majority of the people, 35 million Iranian population those 
days, everybody was eager to have a revolution, an ideological 
revolution. At least the university educated people like me, we 
didn't think that an Islamic regime would be based on Sharia 
and the Mullahs would get all the power.
    In those days we were affected by leftists, and a version 
of Islam that I can call a revolutionary, ideological version 
of Islam was dominant in the Islamic movement and was effective 
to mobilize the people against Shah. But gradually after 
victory of revolution, the Mullahs got the upper hand by of 
course the leader of revolution, Ayatollah Khomenei who was a 
Grand Ayatollah. And gradually other factions of anti-Shah 
movement were dismissed, were suppressed, were massacred, 
during one decade. So anybody who didn't agree with them was 
under pressure.
    I personally, the change that, my changes were not only in 
this part from the theoretical point of view but in action, 
because for 4 or 5 years I was the head of the biggest 
industrial complex of Iran which owns about 140 huge 
manufacturing companies of Iran. And in practice I found out 
that many policies that we thought to run the country on were 
wrong as well, so I gradually----
    Mr. DeSantis. So it was a perfect storm for you.
    Mr. Sazegara. Yes, I left the regime in 1988.
    Mr. DeSantis. So what did you think when the Ayatollah 
started to fund and support groups like Hezbollah in Lebanon 
that would conduct terrorist attacks?
    Mr. Sazegara. It had started from the first decade. The 
idea of exportation of revolution was born with the revolution, 
like many other revolutions of course.
    Mr. DeSantis. And so that was a natural outgrowth to have 
outposts in Lebanon where you would have people who could 
conduct operations?
    Mr. Sazegara. Yes, and especially that several activists of 
the Islamic Revolution were trained in Lebanon and they lived 
in Lebanon for several years. And if precisely I can say it had 
started from an Office of Liberation Movements All Around the 
World in the Revolutionary Guard in 1981-1982, and gradually it 
was changed to Quds Corps and later it became Quds Force which 
were in charge of organizations like Hezbollah in Lebanon.
    Mr. DeSantis. So an attack such as the attack that was 
conducted on the U.S. Marines in Beirut in 1983, that would 
have been just a basic application of their revolutionary 
mindset, correct?
    Mr. Sazegara. Yes.
    Mr. DeSantis. So let me ask you now, fast forward, clearly 
this regime is one of the most repressive in the world. There 
was a chance it seemed in 2009 with the Green Movement where 
there were a lot of people who were really brave to express 
their dissatisfaction.
    The administration here in the United States made the 
decision that that was not something that they wanted to 
support. I think the reason was because they thought that that 
would jeopardize their ability to have a constructive 
relationship with the Ayatollah.
    The President has written the Ayatollah a number of 
letters. I think that was a mistake. I think that we need to be 
supporting groups who are challenging the regime and standing 
up for human rights in Iran. Do you agree that the United 
States should have been supportive of the Green Movement?
    Mr. Sazegara. Yes. Still I wear this green wristband. On 
that summer, summer of 2009, I was in Washington, DC, and I was 
one of the activists of the Green Movement. We had several 
meetings with the officials of administrations, but yes, you 
are right. No support. And in those days we didn't know that 
behind the curtain they are writing some letters to the leader 
of Iran----
    Mr. DeSantis. Right.
    Mr. Sazegara [continuing]. And some communications. But we 
didn't get any real support. And besides to that on those days 
I was on a weekly TV show in Voice of America, a talk show, 
which was very effective in the movement because we had the 
connection with the leaders of the movement. Not the leaders, 
the activists of the movement, and we could give information 
about the demonstrations, what is going on, and we had real 
problems in the Voice of America as well. I mean lots of 
pressure in the Voice of America. And at last that program was 
stopped.
    Mr. DeSantis. I have been frustrated, and I know that my 
friend from Florida, the chairman, has mentioned this that 
there is this, really, just lust to kind of have a kind of 
``deal'' about these nukes. And a lot of us don't think that is 
going to be effective, but it will allow the administration to 
wave a sheet of paper. But because they are so eager bending 
over backwards to try to get a deal, they are really turning a 
blind eye to some of these human rights problems even more so 
than they had been doing previously.
    But with respect to this deal, Iran is one of the most 
energy-rich countries in the world. What do they need nuclear 
power for in terms of for peaceful purposes? I mean it just 
seems to me that you could see like France or some of these 
other countries that don't have access to energy, they have 
hundreds of years of energy reserves and they haven't even 
started fracking yet. So are you skeptical that they will use 
it for peaceful purposes?
    Mr. Sazegara. Yes, very much. I think that so far Iran has 
spent billions of dollars in this project and the value of 
whatever they have produced is just a couple of million 
dollars. And definitely it is not feasible to produce nuclear 
energy in Iran. Iran has the biggest supplies of natural gas in 
the world. Yes, definitely.
    Mr. DeSantis. Mr. Arya?
    Mr. Arya. May I add something to this? I think you should 
look at Islamic regime and its drive to this nuclear issue from 
the perspective of their security. I believe that they want 
this program for several reasons and they won't give it up. One 
is that if they go nuclear they have something to show to their 
own supporters. And yes, the economy is bad, yes, your lives 
are terrible, all that stuff, but look at the end, we made Iran 
an atomic, nuclear power. The second thing that they look for 
in my opinion is that they believe that if they get the bomb 
they have secured the regime.
    Mr. DeSantis. Right.
    Mr. Sazegara. Just like North Korea, nobody will be able to 
do anything. And that security is twofold. One is from outside 
threat; one is internal. I certainly believe that they in their 
minds and in their hearts' calculations they think that if they 
get the bomb they will be secure from outside threat, and 
internally if there is a big, huge uprising they can do 
anything they want without nobody being able to do anything. 
They can massacre hundreds of thousands of people and nobody 
will be able to do anything.
    So because of all these calculations, otherwise it doesn't 
make sense that they spend all this time, all this money, 
enduring all these sanctions that have damaged the Iranian 
economy to the point of almost collapse, hundreds and hundreds 
of billions of dollars damage to this economy for what? For 
generating power? It doesn't make sense. They want it for 
military application. If not they don't want it to make it 
maybe today or tomorrow, but they want to be so close to it 
that they will have that option anytime they want and they want 
to choose.
    And that is a security thing in their minds, in the mind of 
the Supreme Leader and the security apparatus around him, and 
all the Revolutionary Guard people who are controlling 
everything in Iran these days. They look at it as an insurance 
policy that they will use it for saving their own regime. That 
is----
    Mr. DeSantis. And so if you have freedom fighters and 
people who want to have an Iran in which individual liberty is 
respected, Iran has an advantageous deal where they can go 
nuclear, you are making it way more difficult that those forces 
of progress will succeed, correct?
    Mr. Arya. Exactly.
    Mr. DeSantis. One final. In terms of the nuclear ambitions, 
I agree with you. I mean it defies logic that they would do 
this stuff unless they wanted a military application. Because 
the losses that they have incurred to use it for peaceful 
energy, I mean they have the energy, and so you are 100 percent 
right about that.
    And I agree with you about the insurance aspect, and there 
are a lot of reasons why they would want to do it. What about 
the offensive use of nuclear weapons? People have said that 
they have said over and over again that they would like to 
eliminate Israel from the map. They obviously say death to 
America a lot.
    And while there are other countries who may be hostile to 
our allies or to us, we do have this deterrent capability, 
because obviously we have nuclear weapons and other countries 
may have them, but in the case of Iran, if they could take a 
potshot and take out Tel Aviv, let's say, and kill millions of 
Jews, they know they would get hit on return in Tehran or 
wherever and lose maybe more than a few million Iranians. But 
from their ideology they would say that they are hastening the 
return maybe of the Twelfth Imam, the people who are killed in 
Iran would be going straight to paradise.
    So do you think that them with nukes with that ideology, is 
that something that is a little bit different from some of the 
other nuclear powers that we have seen in the past whether it 
is the Soviet Union, whether it is North Korea, which is crazy 
but they do want to keep themselves in power, and they are 
Communists so they don't believe in an afterlife.
    Mr. Arya. There definitely is that aspect to it. I mean 
they are, I mean some elements within that regime they are not 
really rational people. And all those calculations may come 
into their play and that is why it is very dangerous for them 
to have that nuclear capability in terms of military 
application. However, if you look at the Islamic regime, 
whenever they have felt that they have the upper hand and 
whenever they have felt that they are secure they have gone 
aggressive. Their behavior has changed.
    I mean you look at from the very beginning, you look at the 
hostage crisis when they took over the American Embassy. The 
hostage takers, they admit that they only wanted to take the 
hostages for a couple of days, 3 or 4 days, to send a message 
and they will release them. As soon as the regime 
establishment, Khomenei and people around him, realized that 
the Carter administration is not going to do anything and it is 
safe to keep them, they kept them for 444 days.
    Iran-Iraq War, in 1982, Iranian forces liberated 
Khorramshahr. They pushed all the Iraqi forces back. At that 
time Iran was at the highest military position and Iraq was 
afraid, all the Arab countries in the Persian Gulf were afraid 
that Iran will enter the Iraqi territory. At that time 
everybody offered them all kinds of incentives to accept a 
ceasefire. They felt powerful. They didn't do that. They 
continued on. They marched on into Iraq, and they only accepted 
the ceasefire when they had nothing left basically. Even Mr. 
Rezaee at one point in one of his interviews admitted that had 
the war continued for another week they wouldn't even have 
ammunitions for their handguns. So they push all the way there.
    The same thing in Lebanon, in Syria, in Iraq and now in 
Yemen. You look at their behavior in Iraq. As soon as, I mean 
there is a very wonderful article in the New York Times about 
how this whole thing unfolded in Iraq, when after 9/11 they 
were extremely afraid that somehow America will go after them 
and they started cooperating with Ambassador Crocker. They 
tried to be nice to him and gave him some information and 
stuff. As soon as U.S. went into Iraq and they realized that 
there is no plan to move into Iran or do anything about their 
regime, they went aggressive and they caused all that chaos in 
Iraq.
    Mr. DeSantis. They were responsible for killing hundreds of 
U.S. service members.
    Mr. Arya. Exactly. Why do they do that? Because as soon as 
they feel secure, as soon as they feel that there is no 
repercussions for their actions they go aggressive. And they 
have showed it time and time and time again. If they ever get 
their hands on a nuclear bomb, if you think that they are 
aggressive now, wait until then. They won't even need to use 
that bomb to blow up Tel Aviv or anywhere else.
    There are hundreds of other things they can do to make life 
miserable not only for Israelis but for the whole region, as 
they have done so. I mean look at Syria, look at Iraq. I mean 
the carnage that they have caused is immeasurable, I mean in 
Iraq and everywhere.
    Mr. DeSantis. So what in the Congress, and everyone can 
opine on this. What do you recommend that we do? I know there 
are things geopolitically with how we would confront Iran and 
some of their proxies. But in terms of empowering opposition, 
empowering people who want a different, a better Iran, because 
I definitely know that although the regime is one of the most 
oppressive in the world there are millions of Iranians who are 
chafing under this and I think could be natural allies of ours. 
So what do you recommend that the Congress can do to empower 
those elements and ultimately to make Iran a better place?
    Mr. Arya. If you ask me, sir, the best thing that U.S. can 
do is get rid of this mentality of betting on the winning 
horse, per se. We need to identify people who are truly 
democratic and they are truly in line with our values in the 
West and just support them, give them platforms. Not 
necessarily money or anything, but just like give them 
platforms to express their views.
    I always think about Germany after World War II. In 
Germany, we in the U.S. just did and stood by helping 
everybody. They identified democratic forces within German 
society. They gave them financial support. They gave them 
political support. They gave them moral support. They gave them 
all kinds of assistance. And gradually say Christian Democrats, 
they started to grow and grow and grow and become more and more 
powerful. So that is the thing. Right now, for example, all 
this, the U.S. administration's attempt to say, use Quds Forces 
against ISIS, is just, it is ridiculous to me. I am sorry to 
say that but it is ridiculous. I mean to defeat one radical and 
to replace it with another radical, you don't gain anything.
    The best thing for the U.S. is to identify people who are 
truly aligned with our values in the West and give them moral 
support, give them platforms to expand their ideas. Right now 
in Voice of America, for example, and Mr. Sazegara mentioned 
it, a lot of moderate groups don't even get a chance to go over 
there and express their ideas. It is almost impossible to do.
    That is the best thing that U.S. Congress can do. Stand by 
democratic forces, promote them and give them encouragement, 
and stay away from all the other radicals whom we can use for 
short period of time, because that hasn't paid off. It just 
replaces one bad guy with another bad guy. And then in the 
process, the ordinary people they just blame America. They say 
hey, look at them. They are playing with us in order just, it 
is all a big game.
    The conspiracy theories are wild in the Middle East. They 
look at it and say, okay, well, America is using ISIS against 
Iran and Iran against ISIS. So this is just all a game for 
America. We should stay away from it. We should stand by people 
who are truly in line with our values. That is all I can say, 
sir.
    Mr. DeSantis. You guys want to chime in? What do you advise 
us to do?
    Mr. Sazegara. I have submitted a proposal, the appendix to 
my testimony. I kindly ask you to read that. And in that 
proposal I have suggested to have a standing subcommittee for 
human rights in Iran to watch very carefully the human rights 
and show that the Congress of the United States is concerned 
about the human rights in Iran.
    And put pressure on the sources of money of the 
institutions and the persons who abuse human rights in Iran, 
who violate human rights in Iran. The first person is the 
leader and then Revolutionary Guard and several other 
institutions. Forty percent of Iran's economy is controlled by 
these organizations.
    So Ayatollah Khamenei, the leader, insists that human 
rights should be off the table of any negotiation. I think 
Congress can put on the table, if not in this negotiation, the 
nuclear negotiation, in other commissions and say that okay, 
these sanctions will not be removed or new sanctions will be 
regulated in Congress to keep the hands of the suppression 
groups and forces in Iran off the people in Iran. So I think 
that this is the real force that they understand and will send 
a good signal to the people of Iran that the United States is 
concerned about their rights and their freedoms.
    Mr. DeSantis. Mr. Vance, you want to weigh in?
    Mr. Vance. We don't actually have any specific 
recommendations, so certainly we have been grateful for the 
resolutions that have usually been passed in each Congress that 
highlight the situation with respect to human rights and 
especially the Baha'is in Iran, but we don't have any 
recommendations on U.S. policy.
    Mr. DeSantis. Great. Well, I appreciate the witnesses. 
Really a lot of good information and a lot of good insights. So 
I thank you for coming.
    Ms. Ros-Lehtinen. Thank you so much, Mr. DeSantis, for your 
deep interest in this important issue. Very good questions and 
excellent answers from our panelists.
    Unfortunately our subcommittee chairman, Mr. Smith, has 
been unavoidably detained, so with that our joint subcommittee 
hearing is now adjourned. Thank you to all.

    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]
                                     
                               

                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                [all]
                                
</pre></body></html>
